—
[Nn

C@OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga iB tiefs contact@cocklelegalbriefs.com
[-800-225-6964 Web Site
(402) 342-2831] www.cocklelegaibriefs.com

Fax: (402) 342-4850
No. 19-816

KRISTINA BOX, COMMISSIONER, INDIANA
STATE DEPARTMENT OF HEALTH, et al.,
Petitioners,
Vv.
PLANNED PARENTHOOD OF INDIANA
AND KENTUCKY, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S BRIEF IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 6685 words,
excluding the parts that are exempted by Supreme Court Rule 33. 1(d), as needed.

Subscribed and sworn to before me this 26th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

fe oem HOTARY-State of Nebraska & 1, 1 / be Chl
RENEE J. GOSS ORLE., Q. 4

plates ity Comm, Exp, September 8, 2028 ‘
Notary Public Vv Affiant 39526

 
